OIG Investigative Reports, Former Financial Aid Director for New England School of Photography Pleads Guilty to Mail Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
United States Department of Justice
Michael J. Sullivan
U.S. Attorney
District of Massachusetts
United States Attorney's Office
John Joseph Moakley U.S. Courthouse
1 Courthouse Way, Suite 9200
Boston, MA 02210
Press Office: (617) 748-3139
June 9, 2003
PRESS RELEASE
Former Financial Aid Director for New England School of Photography Pleads Guilty to Mail Fraud
Boston, MA... A Dorchester man was convicted today in federal court of mail fraud involving federal student loans.
United States Attorney Michael J. Sullivan and Gary Mathison, Special Agent in Charge of the Department of Education's Office of Inspector General, announced today that KEITH MAGEE, age 34, of 380 Talbot Avenue, Dorchester, pleaded guilty before U.S. District Judge George A. O'Toole to five counts of mail fraud.
At today's plea hearing, the prosecutor told the Court that had the case proceeded to trial the Government's evidence would have proven that MAGEE was the Financial Aid Director for the New England School of Photography      located at 537 Commonwealth Avenue, Boston, Massachusetts during 1997. MAGEE used a variation of his last name, "McGee", to apply for federal student loans for himself. MAGEE submitted at least three separate loan applications to local banks, misrepresenting himself as an enrolled student. In each case, in his capacity as Financial Aid Director, MAGEE certified that "McGee" was an enrolled student. As a result, MAGEE received federal student loan money totaling approximately $14,000.
Judge O'Toole scheduled sentencing for September 29, 2003. MAGEE faces up to 30 years' imprisonment, to be followed by 5 years of supervised release, and a $1 million fine on each count.
The case was investigated by the Department of Education's Office of Inspector General. It is being prosecuted by Assistant U.S. Attorney Nadine Pellegrini, Deputy Chief of Sullivan's Major Crimes Unit.
Press Contact: Samantha Martin, (617) 748-3139
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov